<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-174]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 115-174

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-315 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 26, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
    Prepared statement...........................................    81

                              LEGISLATION

Text of S. 1514, the Hunting Heritage and Environmental Legacy 
  Preservation for Wildlife Act..................................     5
    Text of Duckworth Amendment No. 1............................    69
    Text of Inhofe Amendment No. 1...............................    75
    Text of Sullivan Amendment No. 1.............................    78
    Text of Carper Amendment No. 1...............................    83

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Merkley, Gillibrand, Markey, Duckworth, Harris, and 
Shelby.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    I want to thank everyone for coming in this morning.
    We are here to consider S. 1514, the Hunting Heritage and 
Environmental Legacy Preservation for Wildlife Act, or the HELP 
for Wildlife Act.
    Ranking Member Carper and I will give opening statements, 
then I will call up the bill for amendment. After we vote to 
report the bill to the Senate, I will recognize other members 
for other additional statements that they would like to make.
    The HELP for Wildlife Act is a bipartisan comprehensive 
conservation bill designed to enhance recreational hunting and 
sport fishing activities, ensure common sense environmental 
regulations, and protect wildlife and wildlife habitat.
    I introduce this bipartisan bill along with Senators 
Cardin, Boozman, Klobuchar, Capito, and Baldwin. The bill also 
has been co-sponsored by Senators Johnson, Enzi, King, and 
Inhofe. I want to thank them for working with me in crafting 
this legislation that over 50 environmental and sportsmen 
organizations have endorsed and that the Teddy Roosevelt 
Conservation Partnership has called the strongest legislative 
package of sportsmen's priorities in years.
    Last week the Senate Environment and Public Works Committee 
heard testimony from several witnesses who agreed with the rest 
of the dozens of environmental and sportsmen organizations that 
the HELP for Wildlife Act is a significant conservation bill 
worth supporting.
    The Wyoming Game and Fish Department's chief game warden 
and chief of the wildlife division applauded the bill for 
exhibiting, as he described it, ``a reliance on the underlying 
trust in the abilities of States to make decisions regarding 
important issues affecting their citizenry'' and for ``placing 
priority on and providing resources for America's fish and 
wildlife resources and the places that they live.''
    The CEO of Ducks Unlimited, who is a former director of the 
U.S. Fish and Wildlife Service, testified, ``This bill is very 
important and has a lot of components in it that are important 
to all of us in the conservation community. This significant 
bipartisan conservation bill will improve habitat and protect 
wildlife throughout the Chesapeake Bay watershed in States like 
New York, Maryland, Delaware, and West Virginia.''
    The Vice President of the Environmental Protection and 
Restoration for the Chesapeake Bay Foundation testified, ``The 
Chesapeake Bay Foundation strongly supports the conservation 
programs included in this bill. They are important to the 
sportsmen and anglers in our region and to restoring the 
Chesapeake Bay.''
    The environmental sportsmen's communities are enthusiastic 
about the HELP for Wildlife Act for good reason. The bill 
protects the environment, and it conserves wildlife and 
wildlife habitats by creating fish habitat, conservation 
partnerships, and by reauthorizing the North American Wetlands 
Conservation Act, the National Fish and Wildlife Foundation 
Act, the Neotropical Migratory Bird Conservation Act, the 
Chesapeake Bay Program, and the Chesapeake Bay Gateways Grants 
Assistance Program.
    The bill enhances opportunities for sportsmen by ensuring 
anglers can continue to use lead tackle and by promoting public 
target ranges for recreational shooting.
    The bill provides farmers with regulatory certainty by 
ensuring that they are not held liable for bird baiting for 
hunting purposes when they adhere to USDA and State agriculture 
best practices.
    The bill puts an end to the Endangered Species Act listing 
of the gray wolf in Wyoming and the Great Lakes, which will 
free up the U.S. Fish and Wildlife Service to redirect 
resources that were being spent on the already fully recovered 
gray wolf to other species that are truly in need.
    It is time for this Committee to take a major step toward 
furthering conservation efforts in our States in a bipartisan 
way. I urge my colleagues to stand with the 50+ environmental 
and sportsmen's organizations and constituents that they 
represent who want further conservation efforts in this 
country.
    I look forward to passing this important legislation out of 
the Committee today and working with my colleagues to pass it 
on the Senate floor.
    I will now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Good morning, everyone. As we heard from our witnesses last 
week, the HELP for Wildlife Act addresses many issues that are 
important for our nation's sportsmen and sportswomen who are 
currently working collectively to ensure that outdoor 
recreational opportunities abound for our generation and for 
future generations.
    I am especially pleased that the programs reauthorized in 
this legislation are highly leveraged by private funding, 
funding that is often secured by the outdoor recreation 
community. I am encouraged that these dedicated individuals are 
willing to work hard to better conserve our nation's wildlife 
and to work together.
    These programs also create wonderful opportunities in my 
home State of Delaware. I was pleased to learn from Dale Hall 
last week that Delaware has 10 projects completed or underway 
for funding through the North American Wetlands Conservation 
Act. These projects have conserved more than 10,000 acres of 
wetlands, and for a little State like Delaware, that is a lot. 
Contributions from partners tripled the Government's investment 
in these projects. Tripled the Government's investment.
    Delaware receives approximately $2 million per year through 
the Chesapeake Bay Program for a variety of non-point source 
pollution control, habitat conservation, and other initiatives 
that help improve local water quality, benefit fish and 
wildlife, and reduce the flow of harmful nutrients and 
sediments downriver to the Chesapeake Bay.
    I just want to take a moment just to applaud Ben Cardin for 
his continued work and commitment to cleaning up the Chesapeake 
Bay. I became Governor in 1993, and we had not been very good 
neighbors in Delaware; we were contributing to the degradation 
of the Chesapeake Bay. I think we have cleaned up our act a 
whole lot, and I hope we are much better neighbors to these 
guys. But nobody has worked harder than Ben.
    And we have received, as recently as last week, an update 
report on the Chesapeake Bay, and all the efforts for the last 
20 years actually paying off. Water quality continues to 
improve, and the people who make their livelihoods there are 
better off because of that, so, Ben, I want to thank you.
    Senator Cardin. Chairman, if the Ranking Member would just 
yield for a second.
    Senator Carper. I refuse to yield.
    [Laughter.]
    Senator Cardin. You can take as much time as you want. You 
said take a moment. Take more time if you need it.
    But let me first, you are kind in your praise, but I think 
the Committee should know that Senator Carper has been one of 
the great leaders on this issue, and we have done things 
together in Delmarva on the Bay, so thank you, Senator Carper.
    Senator Carper. Thanks for saying that.
    Building upon these necessary investments in the Bay 
watershed, the National Fish and Wildlife Foundation enables 
complementary water quality improvements by working with 
Delaware communities in agricultural industries. The National 
Fish and Wildlife Foundation also recently funded monitoring 
the restoration in our beloved First State National Historical 
Park, which is the newest national park, I believe, in America, 
in order to provide a better park experience for our residents 
and our visits.
    Last, but not least, the Migratory Bird Conservation Act 
and National Fish Habitat Partnership create and conserve 
habitat for some of our State's most important birds and fish 
species.
    For all these reasons, I support the HELP for Wildlife Act. 
However, no bill is perfect, certainly none that I have ever 
written, and this one is no exception. I must respectfully 
reaffirm my concern with the provision in this bill that 
removes Endangered Species Act protection for gray wolves and 
prohibits judicial review in the Great Lakes and in Wyoming. I 
have listened carefully, as we all have, to our colleagues and 
stakeholders on both sides of this difficult issue, and while I 
understand the Chairman's concerns, I continue to believe that 
congressional intervention is not the best path forward, and I 
urge us not to make it a habit.
    Having said that, though, Mr. Chairman, I want to thank you 
for your efforts to produce a bipartisan bill and for everyone 
who has worked on this to get us here to this point today, and 
I look forward to working with our Chairman and with all of you 
colleagues going forward.
    Thanks so much.
    Senator Barrasso. Thank you very much, Senator Carper.
    We do have a quorum, so we are ready to move.
    I would like to call up S. 1514, the Hunting Heritage and 
Environmental Legacy Preservation for Wildlife Act, the HELP 
for Wildlife Act.
    [The text of S. 1514 follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    

    Senator Barrasso. Members have filed amendments to S. 1514. 
The record will reflect any member requesting to be recorded on 
any item on today's agenda, as long as he or she does so by the 
close of business today and it does not change the outcome of 
the vote that was obtained in the Committee meeting.
    I would now recognize Senator Duckworth to offer Duckworth 
Amendment No. 1.
    Senator Duckworth. Thank you, Mr. Chairman. My amendment is 
based on a bipartisan bill that was introduced by longstanding 
leaders on Great Lakes issues, Senator Peters, Senator 
Stabenow, Senator Portman. It simply authorizes and increases 
funding for the Great Lakes Science Center, which is 
foundational for fishery management decisions on each Great 
Lake.
    The Center currently lacks a dedicated funding stream and 
has no permanent authorization. This uncertainty undermines the 
Great Lakes Science Center's ability to conduct long-term 
planning and most effectively carry out its mission to manage 
the Great Lakes.
    I urge all my colleagues to support this amendment and 
yield back. Thank you.
    [The text of Duckworth Amendment No. 1 follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    
    Senator Barrasso. Thank you very much, Senator Duckworth. I 
am pleased to support your amendment, Duckworth No. 1.
    Would anyone else like to be heard on this amendment?
    Senator Carper. I would also like to record my support. I 
have a statement for the record. I applaud the Senator from 
Illinois for good work on this. Pleased to be able to support 
you.
    Senator Barrasso. I then move to vote on the amendment. Is 
there a second?
    Senator Inhofe. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The Duckworth No. 1 amendment is agreed to.
    Senator Inhofe has filed Amendment No. 1 to S. 1514.
    Senator Inhofe. Mr. Chairman, when an entity would like to 
fund an eligible project using Pittman-Robertson funds, they 
can use the value of the land as part of their match, and the 
match is required. However, an exception is made in that if it 
is a land grant university, they are precluded from doing this. 
All this would do is allow the land grant universities to have 
the same opportunities for a match that other universities 
have.
    [The text of Inhofe Amendment No. 1 follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Barrasso. It is my understanding, Senator Inhofe, 
that this is a revised amendment that will allow land grant 
universities to use land they own to satisfy the in-kind cost 
share requirement under the Pittman-Robertson Wildlife 
Restoration. That is certainly my understanding. I am pleased 
to support Inhofe No. 1, as revised.
    Would anyone else like to comment on the Inhofe amendment?
    [No audible response.]
    Senator Barrasso. Seeing none, move to vote on the 
amendment. Is there a second?
    Senator Shelby. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The revised Inhofe No. 1 is agreed to.
    I now recognize Senator Sullivan to offer Sullivan 
Amendment No. 1.
    Senator Sullivan. Thank you, Mr. Chairman. This is an 
amendment that permits the importation of polar bear trophies 
that were taken from legal hunts in Canada by American citizens 
prior to the 2008 listing of the polar bear as threatened.
    In 2014 the Obama administration issued a statement of 
administration policy in support of this exact language. It is 
a provision that is very narrowly tailored to address just 
these 41 sets of legal trophies, and I ask my colleagues for 
their support on this narrowly drafted legislation that was 
previously supported by the Fish and Wildlife Service of the 
Obama administration, and I think should have bipartisan 
support in this Committee.
    [The text of Sullivan Amendment No. 1 follows:]
    
    
    
    
    
    Senator Barrasso. Thank you, Senator Sullivan. I am pleased 
to support your Amendment No. 1.
    Would anyone else like to be heard on the Sullivan 
Amendment No. 1?
    Senator Merkley. Mr. Chairman.
    Senator Barrasso. Senator Merkley.
    Senator Merkley. I know my colleague has brought this 
forward, and he accurately cites the previous support. I do 
oppose this because essentially when there is consideration of 
listing, you are on the verge of a listing, there has been a 
surge in hunting for species that this would encourage. Should 
we have some other endangered species that has a certain date, 
then there would be a rush to go do takings of that endangered 
species. I think it is not great policy, and I think we should 
oppose it.
    Senator Barrasso. Thank you very much, Senator Merkley.
    Would anyone else like to be heard on the Sullivan 
Amendment No. 1?
    Senator Sullivan. I just would respond.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. There is no evidence that that rush takes 
place. There is no evidence at all; that is speculation. And 
second, these were legal hunts, completely legal. The previous 
Administration supported this. If you are kind of retroactively 
saying to people who engage in conservation and hunting that 
you can no longer do something even though it was legal at the 
time, I think that is bad policy, and we are just trying to 
correct it. It is very narrowly tailored, and I ask my 
colleagues to support it.
    Senator Barrasso. Would anyone else like to be heard on the 
Sullivan Amendment?
    Senator Carper. I have a statement I would like to submit 
for the record, if I could. Thank you.
    Senator Barrasso. Absolutely. Without objection.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I recognize that this amendment applies to only 41 hunters 
who participated in legal hunting activities. Allowing them to 
import their trophies seems reasonable to me, particularly 
since import fees fund necessary polar bear conservation 
measures.
    But I have heard from stakeholders and from some of my 
colleagues that, by creating this exception, we could set a bad 
precedent. We do not want to make a retroactive decision that 
would encourage a rush to hunt declining species, particularly 
those that may ultimately need Endangered Species Act 
protections. This is troubling.
    The HELP for Wildlife Act includes mostly non-controversial 
provisions, and I am concerned about adding another 
controversial provision that affects so few individuals. While 
I can certainly understand Senator Sullivan's case for adding 
this amendment, I cannot support it.

    Senator Barrasso. Seeing no others wishing to make a 
statement, I move that we vote on this amendment. Is there a 
second?
    Senator Inhofe. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [Chorus of nays.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it, and Sullivan No. 1 is agreed to.
    Senator Merkley. Mr. Chairman, I would like to be recorded 
as a no vote. Thank you.
    Senator Barrasso. The record will reflect that.
    I would now like to recognize Senator Carper----
    Senator Cardin. Would you also put me as no on that?
    Senator Barrasso. Yes, sir.
    I now recognize Senator Carper to offer Carper Amendment 
No. 1.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Chairman, I realize that gray wolf management is a 
priority for you and for a number of our colleagues. I fully 
acknowledge that wolves present unique challenges in your State 
that much of our country may not understand. We have heard 
compelling arguments for why wolves should be managed at the 
State level in Wyoming, and I commend you for allowing that 
robust defense to occur in our Committee.
    Having said that, though, I have a strong interest in 
preserving the publicly informed, science driven process that 
currently exists for making endangered species determinations, 
and I am not sure that legislatively delisting species is 
consistent with that interest.
    States and wildlife agencies typically have many years--
sometimes decades--of advanced notice that a species is 
declining, and Endangered Species Act protection is only 
required when State management to protect and recover species 
has failed. For this reason, I believe the rigors of judicial 
review are warranted.
    There is a genuine concern on our side of the aisle, I 
think as you know, about the implications of legislatively 
delisting species. We have heard from stakeholders and citizens 
from across our country who do not believe that this is the 
right approach, and I believe it is my duty as Ranking Member 
of this Committee to ensure that these concerns are represented 
and that our Committee has an opportunity to vote on these 
provisions based on their standalone merits.
    Thank you.
    [The text of Carper Amendment No. 1 follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    I strongly oppose the Carper Amendment. It should be no 
surprise. This amendment would strike Sections 7 and 8 of the 
bill, which contains language strongly supported by not just 
me, but by a number of Democratic colleagues, including Senator 
Baldwin and Senator Klobuchar.
    The Obama administration's Fish and Wildlife Service 
delisted the gray list in Wyoming and the western Great Lakes 
only to be dragged through seemingly never ending court 
processes. These sections put the species management back where 
they have always belonged, in the hands of the States. Neither 
Section 7 nor Section 8 of the bill prohibits future rules 
listing the gray wolf, should either population become 
threatened or endangered.
    In 2011 Senators Carper, Cardin, Merkley, Whitehouse, and 
Gillibrand voted in favor of H.R. 1473. That was the Department 
of Defense and Full Year Continuing Appropriations Act. That 
bill included a similar gray wolf delisting provision for both 
Montana and Idaho that was sponsored by Senators Tester and 
Risch. Responsibly controlling wolves while maintaining healthy 
populations is the goal of Wyoming and the Great Lakes States 
embodied in the language in this conservation bill.
    Wyoming, Wisconsin, and Minnesota have far exceeded their 
population recovery goals for the gray wolf. Wolf populations 
have increased so much that they have led to serious conflicts 
within these States. Attacks on household pets, hunting dogs, 
and other domestic animals are very serious.
    As this chart shows, in Wisconsin, this is in Wisconsin, 
from 2013 to 2016, death and injury of domesticated animals, 
this is of domesticated animals, of hunting dogs, of pets, in 
that single year were 42. So that is what we are looking at.
    In addition, killing of wildlife populations in Wyoming has 
also raised concerns about maintaining our State's iconic elk 
population. This shows a number of elk that were taken. It 
shows an example of what is called a surplus kill done by 
wolves of native elk that occurred in 2016 in Bondurant, 
Wyoming.
    Finally, I was looking at this and thinking about a friend 
of mine who is an athletic trainer, who I have worked with for 
a number of years, me being an orthopedic surgeon, he an 
athletic trainer. I ran into him one day, and I said, how are 
you doing? He said, terrible. I said, what happened? He said, 
well, I had my hunting dog with me in western Wyoming, and then 
he pulled out his iPhone to show me pictures of his dog that 
had an interaction with a wolf, and it was graphic. And you 
knew that this dog was not going to survive and then ultimately 
didn't survive. This hunting dog, this was a member of my 
family, and got into a scrape with a wolf and very quickly was 
lost.
    So this is a serious matter and certainly meaningful to all 
the people who have been experiencing it, so it is for these 
reasons that I urge a no vote on the Carper Amendment.
    Would anyone else like to be heard on Carper Amendment No. 
1?
    Senator Carper. Mr. Chairman, I would ask for a roll call 
vote, please.
    Senator Barrasso. OK.
    Seeing none, I move to a vote, and a roll call has been 
asked. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. We would ask the Clerk to call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Capito.
    Senator Barrasso. No by proxy.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. Aye.
    The Clerk. Mrs. Ernst.
    Senator Ernst. No.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Ms. Harris.
    Senator Harris. Aye.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. No.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Moran.
    Senator Barrasso. No by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. No.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. No.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Barrasso. No.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 10, the nays are 11.
    Senator Barrasso. On this vote, the amendment has failed.
    Does any Senator seek recognition to offer any additional 
amendments to the bill?
    [No audible response.]
    Senator Barrasso. Seeing none, I move that we vote on the 
bill. Is there a second?
    Senator Inhofe. Second.
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, no.
    [Chorus of nos.]
    Senator Carper. Can we have a roll call vote, please?
    Senator Barrasso. The roll call vote has been requested. 
The Clerk will please call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. Aye.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 14, the nays are 7.
    Senator Barrasso. So we have approved S. 1514, as amended, 
by a vote of 14 to 7. It shall be reported favorably to the 
Senate.
    The voting part of the business meeting is finished; 
however, I would be happy to remain and recognize any member 
who wishes to make a statement on this legislation that we have 
just approved.
    Senator Cardin. Mr. Chairman, I ask consent to put a 
statement in the record.
    Senator Barrasso. Without objection, so ruled.
    [The referenced statement was not received at time of 
print.]
    Senator Barrasso. I ask unanimous consent that the staff 
have authority to make technical and conforming changes to each 
of the matters approved today. I also ask unanimous consent 
that the amendments that we just agreed to be considered 
incorporated into the underlying text of S. 1514 and the 
revised text be considered as the amendment in the nature of 
the substitute. Without objection.
    With that, our business meeting is concluded.
    [Whereupon, at 10:25 a.m. the Committee was adjourned.]

                                 [all]
</pre></body></html>
